                       U.S. SMALL BUSINESS ADMINISTRATION 

                           OFFICE OF INSPECTOR GENERAL 

                               WASHINGTON, D.C. 20416 



                                                               AUDIT REPORT
                                                       Issue Date: December 23, 2005
                                                       Report Number: 6-09



To:        Michael W. Hager
           Associate Deputy Administrator for Capital Access

           /S/ original signed
From:      Robert G. Seabrooks
            Assistant Inspector General for Auditing

Subject:	 Audit of SBA’s Administration of the Supplemental Terrorist Activity Relief (STAR)
          Loan Program.

        At the request of the SBA Administrator and the Chair of the U.S. Senate Committee on
Small Business and Entrepreneurship, the Office of Inspector General reviewed SBA’s
administration of the STAR loan program. Attached is a copy of the subject audit report. The
objectives of the audit were to determine if STAR loan recipients were appropriately qualified to
receive STAR loans and if SBA established and implemented proper administrative procedures
to verify STAR loan recipient eligibility. The report contains one finding and seven
recommendations addressed to you. Based on responses received from SBA officials, minor
revisions were made to the report. Your response has been synopsized and included as Appendix
D and the response from the former Associate Deputy Administrator for Capital Access and
former Associate Administrator for Financial Assistance has been synopsized and included as
Appendix E.

        The recommendations in this report are subject to review and implementation of
corrective action by your office in accordance with existing Agency procedures for audit follow-
up. Please provide your management decisions for the recommendations to our office within 30
days of the date of this report using the attached SBA Forms 1824, Recommendation Action
Sheet.

        Should you or your staff have any questions, please contact me at 202-205- [FOIA Ex.
2].

Attachment
             AUDIT OF SBA’s ADMINISTRATION OF THE SUPPLEMENTAL

                  TERRORIST ACTIVITY RELIEF LOAN PROGRAM 


                                          Report Number: 6-09 





The finding in this report is the conclusion of the Office of Inspector General’s Auditing Division based on
testing of SBA operations. The finding and recommendations are subject to review, management decision,
and corrective action in accordance with existing Agency procedures for follow-up and resolution. This
report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
released to the public or another agency without permission of the Office of Inspector General.
                AUDIT OF SBA’s ADMINISTRATION OF THE SUPPLEMENTAL
                     TERRORIST ACTIVITY RELIEF LOAN PROGRAM



                                                     Table of Contents

                                                                                                              Page

INTRODUCTION....................................................................................................1

BACKGROUND ......................................................................................................1

AUDIT OBJECTIVES AND SCOPE ....................................................................9

RESULTS OF AUDIT.............................................................................................10

Finding and Recommendations

Eligibility of Most STAR Loan Recipients Was Difficult to Determine
From Lender Loan Files ............................................................................................10

Appendices

Appendix A: Statistical Sampling Results and Projection Information

Appendix B: Information on Sampled Loans

Appendix C: Sample Loan Justifications

Appendix D: SBA Management’s Response

Appendix E: Comments of Former Associate Deputy Administrator for Capital
            Access & Former Associate Administrator for Financial Assistance

Appendix F: Report Distribution
                                          INTRODUCTION

        The terrorist attacks of September 11, 2001 disrupted the economy of the United States.
In response to concerns about the impact of these terrorist attacks on small businesses, Congress
authorized the Small Business Administration (SBA) to guaranty up to $4.5 billion in loans made
by lenders to small businesses “adversely affected” by the terrorist attacks and their aftermath.
These loans were designated by SBA as Supplemental Terrorist Activity Relief (STAR) loans.

        Several Associated Press articles issued in September 2005 raised concerns whether
STAR loans were made to borrowers that were not affected by the September 11 terrorist attacks.
The SBA Administrator and the Chair of the U.S. Senate Committee on Small Business and
Entrepreneurship subsequently asked the Office of Inspector General (OIG) to perform a review
of the STAR loan program. This report presents the results of our review.

                                       BACKGROUND

Overview of Relevant Loan Programs

        Under section 7(a) of the Small Business Act (15 U.S.C. § 636(a)), SBA may guaranty up
to 85 percent of the amount of a loan made by an authorized lender to a small business. This
program is known as the “7(a) program.” In 1983, SBA implemented the Preferred Lenders
Program (PLP) which allows designated lenders to process, service and liquidate SBA
guarantied loans with reduced SBA oversight. Loans made under the 7(a) program that go into
default are individually reviewed by SBA to determine whether the lender complied with agency
lending requirements. If it is determined that the lender did not comply materially with SBA’s
regulations, SBA can negotiate a settlement of the guaranty amount or deny payment of the
guaranty entirely.

        The Small Business Act also permits SBA to make direct loans to victims of declared
disasters in 15 U.S.C. § 636(b). Disaster loans, which are available to businesses and to
homeowners, can be used to fund repairs of physical damage to homes and businesses, and to
provide working capital to disaster-impacted businesses to allow them to pay their bills or
otherwise fund operational needs. These latter loans are known as Economic Injury Disaster
Loans (EIDLs). In order to make Federal assistance available to more businesses that were
impacted by the September 11th terrorist attacks, and not just those located in the declared
disaster areas, on October 22, 2001, SBA expanded the EIDL program to assist small businesses
located outside the declared disaster areas.

Congressional Authorization of the STAR Loan Program

       The STAR loan program was authorized under the Defense Appropriations Act of 2002,
Public Law 107-117, January 10, 2002 (The Act). The Act provided that:

       [T]he [SBA] Administrator shall, in lieu of the fee collected under section
       7(a)(23)(A) of the Small Business Act (15 U.S.C. 636(a)(23)(A)), collect an
       annual fee of 0.25 percent of the outstanding balance of deferred participation



                                               1

           loans made under section 7(a) to small businesses adversely affected by the
           September 11, 2001 terrorist attacks and their aftermath, for a period of 1 year
           following the date of enactment and to the extent the costs of such reduced fees
           are offset by appropriations provided by this Act.

The Act did not define the term “adversely affected,” and we did not discover much relevant
legislative history for this particular Act to help discern Congress’ intended meaning of this
term.1 SBA managers involved in the implementation of this program have asserted that they
participated in numerous discussions with congressional staff, as well as top Agency political
and career leadership, as to the appropriate interpretation of the legislative mandate; and that
there was a general understanding that the intent was to be more, rather than less, inclusive.
Congress appropriated $75 million for the STAR loan program, which allowed SBA to guaranty
up to $4.5 billion of STAR loans2. Funds were available from January 11, 2002 through January
10, 2003.

SBA Guidance on STAR Loan Program Procedures

       SBA issued two procedural notices in January 2002, providing guidance for the STAR
loan program: Notice 5000-775 (January 17, 2002) and Notice 5000-779 (January 31, 2002).
The notices identified small businesses eligible for STAR loans as follows:

           [T]he term “adversely affected small business” means a small business that has
           suffered economic harm or disruption of its business operations as a direct or
           indirect result of the terrorist attacks perpetrated against the United States on
           September 11, 2001. Some examples of economic harm are: difficulty in making
           loan payments on existing debt; difficulty in paying employees or vendors;
           difficulty in purchasing materials, supplies, or inventory; difficulty in paying
           rents, mortgages, or other operating expenses; and, difficulty in securing
           financing.

The procedural notices made clear that the list of examples was not all inclusive and that the
Agency anticipated there would be other circumstances where a business was adversely affected
by the terrorist attacks so as to be eligible for a STAR loan. The notices, however, did not
provide any examples illustrating what would constitute a “disruption of business operations.”
Procedural Notice 5000-779 provided the following additional guidance on eligibility:

           Agency guidance should not be construed as limiting eligibility to any particular
           geographic area or to any specific type(s) of business. A loan to a start-up
           business may qualify for the STAR program if, for example, the business planned

1
  We note, but have not relied upon, floor statements by various Senators and Congressional Representatives relating to separate legislation
which would have revised certain SBA programs, including the 7(a) program, to facilitate provision of financial assistance to small businesses
harmed by the September 11th attacks. Although that legislation was pending at the same time that Congress enacted the Defense Appropriations
bill establishing the STAR loan program, it was never passed by both Houses of Congress.
2
  Congressional appropriations for the 7(a) program are generally far less than the amount of loans that SBA is authorized to guaranty because
appropriations are based upon historical default rates in the program and program costs are offset through fees paid by lenders to obtain an SBA
guaranty. Therefore, the amount of money appropriated to fund the STAR loan program was substantially less than the total lending authority for
that program.




                                                                       2

       to commence operations earlier, but its ability to do so was hampered by the
       terrorist actions and their aftermath.

The SBA Associate Administrator for Financial Assistance (AA/FA) at the time the STAR loan
program was in effect explained that her recollection was that “earlier” as used in the above
quote applied to businesses that were planned before and after September 11, 2001.

         Procedural Notice 5000-775 indicated that responsibility for determining program
eligibility would rest with the lenders and provided broad guidance on the documentation that
would be needed to show borrower eligibility for a STAR, stating, “Each lender making a
reduced fee 7(a) loan under the provisions of the new law is responsible for determining that the
loan is being made to a small business that was adversely affected by the terrorist attacks of
September 11, 2001. For each such loan, the lender must prepare, place, and keep in its loan file,
a short written statement documenting the basis for its conclusion that the loan is eligible for
inclusion under this provision.” Notice 5000-779, however, imposed additional requirements,
stating as follows:

       SBA believes that a high percentage of businesses finding it necessary to seek
       SBA-guaranteed financing may be found to have been adversely affected by the
       terrorist actions. In order to qualify for the reduced fee, however, the lender
       must: 1) find that the loan applicant was adversely affected by the terrorist events
       of September 11, 2001; AND, 2) prepare and maintain in its loan file a write up
       summarizing its analysis and its conclusion that the loan is eligible for the STAR
       program. A lender will not be found to have met its responsibility for determining
       that a borrower was adversely affected if the lender statement merely states that
       conclusion, but does not provide a narrative justification demonstrating the basis
       for the conclusion.

       Procedural Notice 5000-779, further provided:

       In order for a loan to qualify as a loan under STAR, the SBA lender must:

               Determine that the applicant business was “adversely affected” by the
               terrorist activity of September 11, 2001, and must document the basis for
               this conclusion in its loan file. This documentation must be available for
               review by SBA, but need not be submitted to SBA.

        Lenders were, accordingly, advised that they would not be required to provide their
justifications for prior SBA approval.

        Procedural Notice 5000-779 also provided instructions to lenders to reclassify a loan that
had either been approved or disbursed after January 11, 2002 from a regular 7(a) program loan to
a STAR loan. SBA subsequently issued Procedural Notice 5000-782 on February 21, 2002 to
“streamline the process for re-classifying previously approved loans as STAR loans.”




                                                3

        None of the procedural notices required that money loaned to a small business under the
STAR loan program had to be used to address the adverse effect suffered by the business as a
result of the September 11 attacks and their aftermath. According to an SBA internal fact sheet,
STAR loan proceeds could be used for all regular 7(a) loan purposes. This was confirmed in an
article written by the SBA Associate Deputy Administrator for Capital Access (ADA/CA) at the
time in a publication issued in April 2002 by the National Association of Government
Guaranteed Lenders, Inc. (NAGGL), a trade association for lenders that participated in the 7(a)
Program and other government guarantied lending programs. An SBA regulation (13 C.F.R.
§ 120.120) permits 7(a) loans to be used for any or all of the following purposes:

       (1) Acquire land (by purchase or lease);
       (2) Improve a site (e.g., grading, streets, parking lots, landscaping), including up to five
           percent for community improvements such as curbs and sidewalks;
       (3) Purchase one or more existing buildings;
       (4) Convert, expand or renovate one or more existing buildings;
       (5) Construct one or more new buildings;
       (6) Acquire (by purchase or lease) and install fixed assets;
       (7) Purchase inventory, supplies and/or raw materials;
       (8) Working capital; and
       (9) Refinancing certain outstanding debts (certain types of refinancing are prohibited).

   Lender Participation in the STAR Loan Program

           During the first three months of the program, only two percent of the $4.5 billion
   program authority had been used. According to SBA officials, certain lenders were reluctant
   to use the Program due to concerns that the Agency would second guess their justifications
   used to establish eligibility and possibly deny payment of the guaranties. According to SBA
   officials, various congressional staff expressed considerable concern about the lenders’
   apparent lack of interest in the STAR loan program and urged SBA to promote the use of the
   program among its participating lenders.

           SBA responded by promoting the program through articles in trade journals, speeches
   at lender conferences, and by directing agency district offices throughout the country to
   contact local lenders to persuade them to use the STAR loan program.

           In the April 2002 NAGGL article, discussed above, the ADA/CA at the time voiced
   SBA’s concern about the limited use of the STAR loan program by lenders. The ADA/CA
   voiced two theories for this based upon discussions with lenders: (1) some lenders hadn’t
   heard about STAR yet; and (2) others who knew about the program either “do not yet know
   that loans for small businesses in all areas of the country can qualify, or do not fully
   understand how to determine that a business was adversely affected by the events of
   September 11.” To provide guidance on the latter, the ADA/CA advised:

       The terrorist actions on September 11, 2001 fundamentally changed the day-to-
       day lives of all Americans. But small business owners, who in times of economic
       disruption are more vulnerable than large businesses, were particularly hard hit.



                                                 4

In many industries, small businesses saw sales plummet as Americans temporarily
deserted the marketplace in favor of the comfort afforded by home and family.
This dramatic decline in the purchase of goods and services was very apparent in
the hospitality and travel industries. But, the disruption of normal business
operations was also experienced by small businesses in industries less visibly
affected by the events of September 11. Because of this, the SBA believes that a
very large percentage of small business borrowers located in areas throughout
the country may be eligible for the STAR program.

In guaranteeing a STAR loan, the SBA will rely on the lender’s determination that
a small business was adversely affected by the terrorist actions. When
performing compliance or loan purchase reviews, the SBA will be looking only to
verify that the lender documented its evaluation of the small business’ eligibility
for the STAR program. The SBA has not established any requirements regarding
the severity or duration of the adverse impact that the small business suffered.

   The ADA/CA also offered the following guidance on eligibility for STAR loans:

Perhaps the best way to illustrate circumstances where loans would likely be
found eligible for the STAR program is through examples:

    • For a few days after September 11, a small bakery in Niagara Falls, NY
    suffers dramatic decline in its business and has difficulty obtaining delivery
    of its raw materials. Both situations are quickly corrected. Now the bakery
    comes in seeking a loan to expand its operations. Is this loan request eligible
    to be processed under STAR? YES. The business was clearly adversely
    affected by the terrorist act. It does not matter how severe the impact was, or
    how long it lasted. The lender should find the loan eligible for STAR, and
    simply summarize how the bakery was adversely impacted by September 11-
    in this instance, the temporary loss of sales and disruption of supplier
    deliveries.

    • Since September 11, a small trucking firm in Peoria, IL, has had increased
    travel times for its deliveries due to more frequent inspections because of
    heightened security. These delays have increased the firm’s operational
    costs. Despite this, the business is still operating profitably, and is seeking a
    loan to finance the purchase of two additional trucks. Is this loan eligible to
    he processed under STAR? YES. In this case, the adverse affect [SIC] could
    be considered ongoing, but is not fatal to the business’ success. The lender
    should find the loan eligible, and, again, simply summarize the basis for that
    conclusion.

As these examples show, we expect that a very high percentage of 7(a) loan
applications are appropriate for STAR processing. We also expect that some
loans made through the regular 7(a) program since January 10, 2002 may also




                                         5

       qualify under STAR, and we have established procedures for reclassifying such
       loans, when appropriate.

        On May 30, 2002, the AA/FA at the time spoke at a conference in Northern California
attended by 125 lenders participating in the 7(a) program. According to our interview with the
AA/FA, the purpose of the speech was to market the STAR loan program to the lenders and
encourage participation. A newsletter that reports on the 7(a) program, Coleman Report, in an
issue dated June 1, 2002, quoted extensively from the AA/FA’s presentation. The newsletter
advised that the AA/FA’s presentation was made at a time when lenders participating in the 7(a)
program were concerned about SBA’s heightened level of scrutiny in reviewing lender requests
for payment of loan guaranties resulting in an increasing number of SBA denials of guaranty
payments. The newsletter advised that the AA/FA also promised the agency would not second
guess lender justifications on Supplemental Terrorist Relief (STAR) 7(a) loan program loans.
The newsletter quoted the AA/FA as saying:

       “SBA has taken a stand that is very inclusive. We have an expansive definition of
       economic disadvantage. As a matter of fact, we believe that every business can
       probably demonstrate some degree of economic disadvantage as a result of the
       terrorist attacks. We so strongly believe this -- we have a lunch meeting every
       Tuesday -- we’ve offered any lender who has a loan that can’t find any basis for it
       to be a STAR loan to e-mail us the facts of the situation and we’ll spend our lunch
       hour looking at it for you.”

       “I know many of you have not used the program because you are worried about
       post-lending review by SBA. First of all, I want to tell you that by the terms under
       which we have implemented the program, we delegate to you, the lender, the
       authority to determine that a business was adversely affected. It is your
       determination, not SBA’s determination. It is not our intent to substitute our
       judgment for your judgment in these cases.”

       “The second factor for PLP reviews and for post-purchase reviews on any loan
       that defaults is that SBA will only be looking for one thing. They will be looking
       for a document that you have put in the file where you discuss how the business
       was adversely affected. It is not enough to say ‘This business was adversely
       affected.’ It is enough to say ‘This business was adversely affected because…’
       And we believe that the ‘becauses’ can be very inclusive. For example, one of our
       lenders on the East Coast sent in a whole series of examples where they were
       asking us to make judgments so they could get benchmarks for what was
       considered eligible for STAR and what wasn’t.”

       “In fact, every single example they sent in we determined would have been
       eligible for STAR. One example was a bakery in downtown Washington, DC.
       First of all, the events shut down Washington for about a day, so that effectively
       the business was out of business for a little bit -- a day, maybe two. Secondly,
       there were some disruptions to the bakery’s ability to deliver products and its
       ability to get raw materials. For those that weren’t in Washington, traffic



                                                6

   patterns in the city were changed immediately and many remain changed. There
   are a lot of streets that are no longer open to traffic on a daily basis, so there was
   some disruption of traffic patterns. The borrower wanted to buy his building. On
   first blush you might say that buying the building has very little to do with
   anything related to the attacks. It doesn’t have to. The business was adversely
   affected, and because it was adversely affected, it is eligible for STAR no matter
   what purpose the loan is to be used for.”

   “There will be lots of examples that will come to mind automatically. The travel

   agent who not only had a number of cancellations because the planes stopped 

   flying but also had cancellations because people were reluctant to travel. Those 

   things are clear. But you also need to think about the printer who provides the 

   materials for the brochures for the travel agent who doesn’t have any business 

   right now.” 


   “One of our lenders actually said he has instructed his staff if he has a loan that 

   is not a STAR loan, the lender has to justify that as well as justify the ones that 

   are STAR loans. I think that’s a great practice. We want to encourage these 

   loans to be made, and we want you to understand that we do not intend to play 

   ‘gotcha..’” 


        On June 24, 2002, the SBA issued Information Notice 5000-805 to its field offices
entitled “Lenders Determine Borrowers Eligibility for 7(a) STAR Loans.” The notice
advised as follows:

   The Office of Financial Assistance reminds all SBA employees that the 

   responsibility for making the final determination regarding whether a borrower 

   qualifies for a 7(a) STAR Loan has been delegated to the participant. When the 

   program was announced, the following was stated in Notice 5000-775. 


   Each lender making a reduced fee 7(a) loan under the provisions of the new law
   is responsible for determining that the loan is being made to a small business that
   was adversely affected by the terrorist attacks of September 11, 2001. For each
   such loan, the lender must prepare, place, and keep in its loan file, a short written
   statement documenting the basis for its conclusion that the loan is eligible for
   inclusion under this provision.

Information Notice 5000-805 did not contain the language in Procedural Notice 5000-779
that stated that a “lender will not be found to have met its responsibility for determining that
a borrower was adversely affected if the lender statement merely states that conclusion, but
does not provide a narrative justification demonstrating the basis for the conclusion.”

       Subsequent to these actions, there was a significant increase in STAR loan approvals
and reclassifications. From July 1, 2002 through September 30, 2002, a total of 3,191 STAR
loans were approved or reclassified, totaling approximately $1.3 billion which is more than
14 times greater than the lenders’ use of the program during the first three months.



                                              7

        On October 1, 2002, SBA issued Procedural Notice 5000-828, stating that the
maximum loan size for regular 7(a) loans was capped at $500,000 due to restrictions that
Congress had imposed on spending under the program in a continuing budget resolution.
The Notice advised that the cap on loan size did not apply to the STAR loan program, and
that the maximum loan that could be made under that program was $2 million. After
October 1, 2002, there was a significant increase in the percentage of STAR loan approvals
exceeding $500,000. Prior to the 7(a) loan cap, 27 percent of the STAR loans were greater
than $500,000. After the cap, 44 percent of the STAR loans were greater than $500,000.

        There was also a significant increase in program activity immediately prior to
expiration of the STAR loan program on January 10, 2003. Eight percent of all STAR loans
disbursed were approved during the last four days of the program (577/7058). Ultimately,
there were 8,201 STAR loans approved totaling approximately $3.7 billion, but only 7,058
were disbursed. Of the 7,058 disbursed loans, 1,262 loans were reclassified from the 7(a)
program to the STAR loan program.

       When the STAR loan program expired on January 10, 2003, funds remained in the
appropriations for that program. After the STAR loan program expired, Congress authorized
37 percent of the $75 million budgetary authority for making STAR loans to be transferred to
the appropriations for the 7(a) program.




                                           8

                                 AUDIT OBJECTIVES AND SCOPE

        As requested by the Chair of the U.S. Senate Committee on Small Business and
Entrepreneurship, the objectives of the audit were to determine if STAR loan recipients were
appropriately qualified to receive STAR loans and if SBA established and implemented proper
administrative procedures to verify STAR loan recipient eligibility. To answer the audit
objectives, we selected a statistical sample of 59 STAR loans from the universe of 7,058
disbursed STAR loans approved between January 11, 2002 and January 10, 2003. We used the
Defense Contract Audit Agency’s ‘E-Z-Quant’ statistical sampling program to compute the
sample size at a 95 percent confidence level. See Appendix A for the statistical sample loan
results and projection information and Appendix B for information about the loans included in
our sample.

        Our review for the first objective was limited to an examination of the documentation
maintained in the lenders’ loan files to support their eligibility determinations and interviews
with as many of the 59 borrowers as we were able to contact. Therefore, to the extent that
lenders did not adequately document the eligibility of loan recipients, it could not be determined
whether those borrowers were appropriately qualified for the STAR loan program.

        During the audit, we (i) examined loan files maintained by the lenders, (ii) interviewed
SBA officials from the Office of Financial Assistance, the Office of General Counsel, the Office
of Congressional and Legislative Affairs, the Office of the Chief Financial Officer, and the
Office of Lender Oversight, (iii) interviewed selected lender officials, and (iv) contacted certain
small businesses that obtained STAR loans. While we made repeated attempts to contact all 59
STAR loan recipients in our sample, we did not have current contact information for 2 of the
borrowers, and 15 others did not respond to our inquiries. As a result, we interviewed only 42 of
the 59 loan recipients in our sample. We did not verify the accuracy of the borrowers’
statements.

        There were 27 lenders included in our sample. We made site visits to six of the lenders
that made 30 of the 59 sampled loans, and 3,934 (56 percent) of the total population of 7,058
disbursed STAR loans, to review loan files and interview lender officials. These lenders were
located in Dallas, TX; Phoenix, AZ; Minneapolis, MN; San Diego, CA; Kimberly, WI; and
Livingston, NJ. The other 21 lenders for the remaining 29 loans shipped the files to our audit
offices for review. The audit was conducted during September and October 2005, in accordance
with Government Auditing Standards.




                                                 9

                                    RESULTS OF AUDIT

Finding - Eligibility of Most STAR Loan Recipients Was Difficult to Determine From
          Lender Loan Files

         Most lender files did not contain sufficient information to demonstrate that borrowers
were adversely affected by the September 11th terrorist attacks and their aftermath. As a result,
eligibility could not be determined for 85 percent of STAR loans reviewed. While SBA initially
established broad criteria for determining how borrowers were adversely affected, lenders were
required to document in their loan files a “write up summarizing its analysis and conclusion” that
the loan was eligible for the STAR loan program. A conclusion absent a narrative justification
demonstrating the basis for the conclusion was not acceptable.

         Due to initial limited lender participation in originating STAR loans, SBA undertook
efforts to promote the program by advising lenders that virtually any small business qualified and
assuring them that SBA would not second guess their justifications. Although SBA established
criteria for documenting STAR loan eligibility, it did not establish specific requirements to
review or verify lenders’ STAR justifications. Despite the documentation requirements, we
found that lenders did not include sufficient justifications showing impact on borrowers and
STAR loans may have gone to businesses that were not adversely impacted by the terrorist
attacks of September 11th or their aftermath. As a result, funds appropriated for guaranties on
loans made to small businesses adversely affected by the terrorist attacks may not have been
used for that purpose. Nevertheless, it appears that qualified borrowers were not precluded from
receiving STAR loans due to a lack of funds because there was a surplus of budget authority
available when the program expired.

STAR Loan Criteria

       Pursuant to SBA Procedural Notice 5000-779, in order to qualify for a STAR loan,
lenders were required to:

               “ …(1) find that the loan applicant was adversely affected by the terrorist
       events of September 11, 2001; AND, (2) prepare and maintain in its loan file a
       write up summarizing its analysis and its conclusion that the loan is eligible for
       the STAR program. A lender will not be found to have met its responsibility for
       determining that a borrower was adversely affected if the lender statement merely
       states that conclusion, but does not provide a narrative justification
       demonstrating the basis for the conclusion.”




                                               10

Questionable Eligibility

        Nine (15 percent) of the 59 borrowers in our statistical sample appeared to have been
appropriately qualified to receive STAR loans based on a review of the lenders’ loan files and
discussions with available borrowers. Eligibility for the remaining 50 (85 percent) STAR loans
could not be determined because the required justifications were either missing, related to the
seller of an existing business rather than the “loan applicant” and SBA procedures did not
specify whether such loans could qualify, contrary to documentation in the lender’s loan files or
borrower statements, or ambiguous. The justifications for the 50 loans can be grouped as
follows:

       •	 Justification was missing (5 loans).

       •	 Justification was merely a conclusion with no support (4 loans).

               Three of the four loans had this justification: “This customer has been adversely
               affected by the terrorist attacks of September 11, 2001 in the following manner:
               Borrower has experienced a business disruption” (Appendix C, Nos. 13, 14 & 15)

       •   Justification was based on the adverse effects suffered by the business being
           purchased with a STAR loan rather than the “loan applicant” and SBA
           procedures did not specify whether such loans could qualify (11 loans).

               While Procedural Notice 5000-779 was clear that existing and start-up businesses
               could qualify for STAR loans, it did not specify whether a borrower purchasing
               an existing business could qualify. Procedural Notice 5000-779 required lenders
               to find that the “loan applicant” was adversely affected by the terrorist events of
               September 11, 2001. It is our interpretation that a justification based on the
               business being purchased rather than the “loan applicant” did not qualify for the
               STAR loan program. We recognize, however, that there may be other
               interpretations of this requirement, and therefore, have concluded that eligibility
               could not be determined for the loans in this category.

               A loan to a dry cleaner illustrates this type of justification: “Borrower has advised
               that subject business had closed down for the day on September 11 and
               September 12, due to the tragic events of 9/11/01. We will therefore designate
               this as a STAR.”

               The adverse impact was under the previous ownership and therefore, the
               justification did not apply to the applicant borrower. (Appendix C, No. 24)

       •	 Justification was contrary to documentation in the lender’s loan file or borrower
          statements (21 loans).

               The following example illustrates this type of justification: “[Borrower]
               experienced a considerable drop-off in revenue after the terrorists attacks in
               September. It took a significant toll on the cash flow of the business. With sales

                                                11

               down, overhead costs diminished the working capital of the business. [Principal]
               did an excellent job utilizing all his resources to fulfill all his obligations and pay
               his suppliers and creditors in a timely manner. With the proposed SBA loan,
               [Principal] will be able to consolidate his entire corporate debt into a low
               interest note, benefiting cash flow immediately. Since January, sales are back on
               track and [Borrower] is on target to meet all their projections for 2002.”

               The information that contradicted this justification was found in the lender’s
               credit memorandum which stated, “In 2001, [Principal] took a break from
               working at the shop and being on site at all times. The result was a drop off in
               quality control and efficiency, ultimately leading to a fall off in sales from
               $575,564 in 2000 to $438,880 for the 12-months ending 12/31/01. This was
               disappointing to [Principal], who then decided he wanted full ownership back.”
               (Appendix C, No. 30)

       •	 Justification was vague and neither contrary to nor supported by documentation
          in the lender’s loan file or borrower statements (9 loans).

               An example of this type of justification is the following statement: “[Borrower]
               has been planning to expand their business by adding on to their existing facility
               and upgrading their equipment. Because this business is closely tied to the new
               construction industry the borrower has been reluctant to expand his business due
               to the impact 9/11 had on the economy.”

               There was no evidence in the lender’s loan file to support or contradict that the
               borrower was reluctant to expand his business. The borrower’s financial
               statements indicated a strong growth in income from 1999 through 2003 with no
               significant increase in costs. The borrower did not respond to our inquiries.
               (Appendix C, No. 58.)

The statistical projection of these groupings to the entire disbursed STAR loan portfolio of 7,058
loans is shown at Appendix A.

         It is not our position that the recipients of the 50 loans were unqualified for the STAR
loan program. We only conclude that eligibility could not be determined for these recipients due
to the lack of adequate STAR justifications and supporting documentation in the lenders’ loan
files.

Many Borrowers Were Unaware They Had Received STAR Loans

         We interviewed 42 of the 59 STAR loan recipients in our sample to determine if they
knew they had a STAR loan and had discussed the impact of the terrorist attacks with the lender.
The remaining 17 borrowers could not be reached during the audit. The results of the interviews
are listed below.

           •   Only two of the 42 borrowers were aware they had obtained a STAR loan.


                                                 12

           •	 Thirty-six of the 42 borrowers said they were not asked or could not recall if they
              were asked about the impact of the attacks on their businesses.

           •	 Of the nine borrowers who appear to have been adversely affected, eight
              confirmed they were adversely affected by the attacks. (The ninth did not respond
              to our inquiries.)

           •	 Twenty-five of the 34 borrowers we interviewed, where eligibility could not be
              established, stated they were not adversely affected by the terrorist attacks.

           •	 The other nine said they were adversly impacted, but provided different
              justifications than what was documented in the lender files or provided
              explanations of how the sellers were impacted rather than themselves.

           •	 After repeated attempts, we were unable to reach the other 16 borrowers whose
              loans were not properly justified and therefore, we relied solely on the
              justifications and documentation in the lenders’ files in categorizing these loans.

Lack of Adequate Controls and Oversight

        SBA did not implement adequate internal controls and oversight of the STAR loan
program to ensure that only eligible borrowers obtained STAR loans. SBA delegated to its
lenders the responsibility for the final determination of an applicant’s qualification for a STAR
loan without any oversight by SBA. Although SBA was responsible for determining if the
borrowers met eligibility and credit requirements for regular 7(a) loans, SBA loan officers were
directed not to question the lenders’ justifications for regular 7(a) STAR loans. Further, in an
effort to promote the STAR loan program and encourage lender participation, senior SBA
officials made several public statements that broadened the scope of eligibility for the program
and provided assurances that lender eligibility justifications would not be second guessed.

        Public statements made by the then ADA/CA and the AA/FA conveyed SBA’s expansive
interpretation of the term “adversely affected” and that SBA believed that virtually every small
business had suffered some direct or indirect adverse impact and could likely qualify for a STAR
loan. In an April 2002 NAGGL article, the ADA/CA at the time offered the following guidance
on eligibility for STAR loans:

       Perhaps the best way to illustrate circumstances where loans would likely be
       found eligible for the STAR program is through examples:

            • For a few days after September 11, a small bakery in Niagara Falls, NY
            suffers dramatic decline in its business and has difficulty obtaining delivery
            of its raw materials. Both situations are quickly corrected. Now the bakery
            comes in seeking a loan to expand its operations. Is this loan request eligible
            to be processed under STAR? YES. The business was clearly adversely
            affected by the terrorist act. It does not matter how severe the impact was, or
            how long it lasted. The lender should find the loan eligible for STAR, and
            simply summarize how the bakery was adversely impacted by September 11-

                                                13

            in this instance, the temporary loss of sales and disruption of supplier
            deliveries.

            • Since September 11, a small trucking firm in Peoria, IL, has had increased
            travel times for its deliveries due to more frequent inspections because of
            heightened security. These delays have increased the firm’s operational
            costs. Despite this, the business is still operating profitably, and is seeking a
            loan to finance the purchase of two additional trucks. Is this loan eligible to
            be processed under STAR? YES. In this case, the adverse affect [SIC] could
            be considered ongoing, but is not fatal to the business’ success. The lender
            should find the loan eligible, and, again, simply summarize the basis for that
            conclusion.

       As these examples show, we expect that a very high percentage of 7(a) loan
       applications are appropriate for STAR processing. We also expect that some
       loans made through the regular 7(a) program since January 10, 2002 may also
       qualify under STAR, and we have established procedures for reclassifying such
       loans, when appropriate.

       The AA/FA at the time was quoted in the June 1, 2002 Coleman Report as saying:

       “SBA has taken a stand that is very inclusive. We have an expansive definition of
       economic disadvantage. As a matter of fact, we believe that every business can
       probably demonstrate some degree of economic disadvantage as a result of the
       terrorist attacks. We so strongly believe this – we have a lunch meeting every
       Tuesday – we’ve offered any lender who has a loan that can’t find any basis for it
       to be a STAR loan to e-mail us the facts of the situation and we’ll spend our lunch
       hour looking at it for you..”

        Furthermore, statements by the ADA/CA and the AA/FA advised lenders that although
STAR justifications would be required during compliance and purchase reviews, SBA would not
substitute its judgment for the lenders’ judgment as to the substance of those justifications. The
ADA/CA wrote:

       When performing compliance or loan purchase reviews, the SBA will be looking
       only to verify that the lender documented its evaluation of the small business’
       eligibility for the STAR program.

       The AA/FA further advised, as quoted in the Coleman Report:

       “I know many of you have not used the program because you are worried about
       post-lending review by SBA. First of all, I want to tell you that by the terms under
       which we have implemented the program, we delegate to you, the lender, the
       authority to determine that a business was adversely affected. It is your
       determination, not SBA’s determination. It is not our intent to substitute our
       judgment for your judgment in these cases. The second factor for PLP reviews
       and for post-purchase reviews on any loan that defaults is that SBA will only be

                                                 14

       looking for one thing. They will be looking for a document that you have put in
       the file where you discuss how the business was adversely affected.”

        Lenders, however, were not required to submit STAR loan justifications with their
guaranty purchase requests to SBA, and SBA loan officers were not required to evaluate the
justifications during the purchase review process. Furthermore, although officials in the Office
of Lender Oversight stated that STAR loan eligibility was examined during PLP lender reviews
and any problems would have been noted as either an ineligible business or an ineligible use of
proceeds citation, there were no such citations made in the PLP lender reviews that we examined
which included 5 STAR loans with inadequate justifications.

Lenders’ Understanding of STAR Loan Program Requirements

        According to several lenders, participation in the STAR loan program was low when the
program was introduced due to unclear and poorly defined requirements. After a vigorous
marketing campaign by SBA, lender participation in the STAR loan program increased.
Statements by the ADA/CA and AA/FA were interpreted by certain lenders we interviewed to
mean that every small business could claim it was somehow impacted by the attacks, and
therefore, eligible to receive a STAR loan. While several lenders stated they were aware of the
program requirements and limitations set out in the governing procedural notices, they stated that
they relied on the public statements made by senior SBA officials. For example, one lender
claimed that SBA approved a list of boiler-plate STAR loan justifications used by their loan
officers, although SBA officials could not recall approving such a list. Such boiler-plate
justifications, however, were not in compliance with the requirements of Procedural Notice
5000-779 that lenders document their analysis supporting eligibility. Thus, it appears that certain
lenders believed that abbreviated justification statements were acceptable.

STAR Loan Program Compared to SBA’s Disaster Loan Program

        Prior to implementing the STAR loan program, SBA expanded the Economic Injury
Disaster Loan (EIDL) program to assist small businesses located outside the declared disaster
areas and the contiguous geographic areas that suffered substantial economic injury as a direct
result of the terrorist attacks and their aftermath. The expanded EIDL program consists of direct
loans approved by the SBA Office of Disaster Assistance. Regulations were published in the
Code of Federal Regulations and memos were written describing loan processing procedures and
specific eligibility criteria with sample questions and answers for the loan officers to refer to in
determining eligibility.

        Under Expanded EIDL, the applicant was required to establish how it suffered substantial
economic injury as a direct result of the terrorist attacks and had to provide monthly sales figures
for the 3 years prior to the disaster and up to the most recent month before loan application.
SBA then performed and documented an analysis before approving the loan.

       The STAR loan program was comparable to the Expanded EIDL program in that both
were designed to assist victims of the September 11th terrorist attacks and their aftermath.
Unlike Expanded EIDL applicants, however, loan applicants under the STAR loan program were
not required to demonstrate that they had been injured by the terrorist attacks or provide
supporting documentation.
                                                15

Regular 7(a) Loans Capped at $500,000

        On October 1, 2002, SBA issued Procedural Notice 5000-828, stating that the maximum
loan size for regular 7(a) loans was capped at $500,000 due to restrictions that Congress had
imposed on spending under the program in a continuing budget resolution. The Notice advised
that the cap on loan size did not apply to the STAR loan program, and that the maximum loan
that could be made under that program was $2 million. After October 1, 2002, there was a
significant increase in the percentage of STAR loan approvals exceeding $500,000. Prior to the
7(a) loan cap, 27 percent of the STAR loans were greater than $500,000. After the cap, 44
percent of the STAR loans were greater than $500,000. The cap provided an incentive for the
liberal use of STAR loans to get around the $500,000 7(a) cap and may have been a contributing
factor towards the increased use of the STAR loan program.

STAR Loan Program Performance and Funds Availability

        While STAR loan eligibility could not be ascertained from most lender files, it does not
appear that any eligible business concern would have been prevented from receiving a STAR
loan due to a lack of funds. When the STAR loan program expired, there was a surplus of funds
available and more than $27 million (37 percent) of the $75 million STAR loan budgetary
authority was transferred to the 7(a) program. Further, the default rate for STAR loans is not
excessive when compared to similar SBA guarantied loans. As of September 30, 2005, only 8
percent of disbursed STAR loans approved between January 11, 2002 and January 10, 2003 had
been transferred to liquidation status, while 10 percent of the 7(a) loans approved during the
same time period had been transferred to liquidation status.

RECOMMENDATIONS

        If SBA enacts another special program where 7(a) loans are to be used for Nation-wide
disaster relief, we recommend the Office of Capital Access take the following actions:

1. 	   Require loan applicants to justify how the business was harmed by the disaster.

2. 	 Require lenders to obtain supporting documentation to verify applicant claims of injury and
     provide detailed justifications showing applicant eligibility.

3. 	   Implement effective internal controls and program oversight to ensure borrower eligibility
       and lender compliance.

        In relation to the STAR loan program, we recommend the Office of Capital Access take
the following actions:

4. 	   Implement procedures to require lenders to submit STAR loan justifications when seeking
       SBA’s purchase of a STAR loan guaranty.

5. 	 Establish criteria, in consultation with the Office of General Counsel, to provide more
     definitive guidance and examples for purchase reviewers to use in determining what
     constitutes an inadequate justification for STAR eligibility.

                                                16

6. 	    For future purchase requests, determine, in consultation with the Office of General
        Counsel, whether STAR loans that contain inadequate justifications can be reclassified as
        7(a) loans (if budget authority remains available) or whether SBA can deny lender requests
        for purchase of the guaranties under SBA regulation 13 C.F.R. 120.524.

7.	     Review guaranties the agency has already paid under the STAR loan program, obtaining
        additional records from lenders as necessary, to determine whether lenders were paid
        despite the absence of adequate borrower eligibility justifications. If lenders had
        inadequate justifications, determine, in consultation with the Office of General Counsel,
        whether SBA should reclassify the loans as 7(a) loans (if budget authority remains
        available) or seek recovery of the guaranties from the lenders.

SBA Management’s Response

        SBA management generally concurred with the audit recommendations, but expressed
concerns with the extent of audit work performed and several OIG conclusions in the audit
report.

       The Associate Deputy Administrator for Capital Access (ADA/CA) and the former
ADA/CA and former Assistant Administrator for Financial Assistance (AA/FA), believe that the
OIG report failed to reflect a full understanding of the purpose of the STAR loan program. The
more significant comments from the two responses are presented below.

       •	 Most, if not all, STAR loan program borrowers were eligible for the STAR loan program,
          but more rigorous controls are needed for the guaranty review process for STAR loans.
       •	 The report is deficient because it does not provide any historical context for the 

          authorization and implementation of the STAR program. 

       •	 The SBA officials emphasized the different purposes of the STAR loan program and the
          disaster loan program, suggesting that the OIG has an overly narrow definition of which
          borrowers were eligible for STAR loans.
       •	 The former ADA/CA and AA/FA suggested that the STAR loan program was intended as
          a general economic stimulus program.
       •	 Guidance provided to lenders regarding eligibility and documentation requirements
          through the speech and article detailed in the report were clear and consistent with the
          earlier Agency procedural notice.
       •	 The ADA/CA stated that lenders were aware that loans would be reviewed during the
          guaranty purchase process and had no basis to believe a purchase request would not be
          evaluated for STAR loan program eligibility.
       •	 In a May 2002 speech, the AA/FA at the time specifically stated that during PLP and post
          purchase reviews, SBA would be looking for documents in the lender’s files that
          discussed how the businesses were adversely affected, but would not play “gotcha” to
          deny a guaranty or otherwise penalize lenders.
       •	 The former ADA/CA and AA/FA believe that the OIG is now engaged in second
          guessing STAR loan program justifications, including those that appear to meet the broad
          program eligibility guidelines.



                                                  17

        It was recommended that the OIG consider extending its audit work and interview other
individuals involved in creating and implementing the STAR loan program. In particular, it was
suggested that the OIG interview staff on the congressional committees at the time the program
was created as well as the former ADA for Management and Administration, the former
Counselor to the Administrator, the former ADA/CA, the former Acting ADA/CA and other
current and former SBA employees directly and indirectly related to the implementation of this
program. The former ADA/CA and AA/FA believe the information gained from these
interviews would allow a more complete and comprehensive OIG audit report. (Copies of the
actual responses from the ADA/CA and the former ADA/CA and AA/FF are at Appendices D
and E, respectively.)

OIG Evaluation of SBA Management’s Response

        SBA Management generally agreed with all OIG recommendations and did not disagree
with the audit finding that eligibility of most STAR loan recipients in the loans reviewed was
difficult to determine from lender files. Nevertheless, SBA officials raised concerns with several
of the OIG conclusions in the report. The more significant concerns are addressed below.

         With regard to our understanding of the STAR loan program, the OIG believes that when
Congress established the program to assist small businesses that were “adversely affected” by the
September 11th attacks and their aftermath, the intent was that loan applicants would be required
to demonstrate that they had actually been directly or indirectly harmed in some discernible
manner to obtain a STAR loan. As set forth in the report, in the vast majority of cases, the lender
files did not contain sufficient documentation to support such a determination. Additionally,
rather than passing legislation to benefit small businesses adversely impacted by the attacks and
their aftermath, Congress could have increased the level of appropriations for the regular 7(a)
program if congressional intent was limited to stimulating the economy.

        The OIG does not agree that guidance provided through the speech and article was
always consistent with the procedural notice. In the procedural notice, which the OIG reviewed
and concurred with, the Agency offered a non-exhaustive list of examples of discernible
economic harm that a business might have suffered to be eligible for a STAR loan (e.g.,
“difficulty in making loan payments on existing debt; difficulty in paying employees or vendors;
difficulty in purchasing materials, supplies, or inventory; difficulty in paying rents, mortgages, or
other operating expenses; and, difficulty in securing financing”). The article and speech by the
former loan program officials, however, offered examples of businesses that had shut down for a
day or two due to the September 11th attacks as being eligible for a STAR loan. In our opinion,
these communications appear to have broadened the scope of eligible applicant businesses.

         Further, the Agency notice advised that a lender making a STAR loan needed to prepare
“a write up summarizing its analysis and its conclusion that the loan is eligible for the STAR
program,” and that merely stating a conclusion of eligibility without a “narrative justification
demonstrating the basis for the conclusion” would be insufficient. The guidance offered by the
former ADA/CA and AA/FA, although reiterating that lenders were required to document their
justifications, also advised that SBA would only “verify that the lender documented its
evaluation of the small business’ eligibility” and that SBA would not “substitute [its] judgment
for [a lender’s] judgment” as to eligibility. We believe these communications were intended to,
and did, send a message to lenders that the Agency would not question lender eligibility
                                                 18

determinations. As the former ADA/CA and AA/FA stated, “[i]n order to encourage lenders to
make STAR loans, we needed to give them some level of comfort that we would not later ‘play
gotcha’ to deny guaranty liability or otherwise penalize lenders.” Our interviews with several
lenders that made a significant number of STAR loans confirmed that some lenders believed that
SBA only required very minimal documentation of borrower eligibility. In effect, the guidance
by the former loan program officials suggested that SBA delegated broad, if not, complete
discretion to lenders to determine applicant eligibility.

         Indeed, this implication finds support in the fact that, although the Agency required
lenders to document STAR eligibility justifications, it did not require lenders to provide these
justifications when requesting SBA to purchase a guaranty on a defaulted STAR loan. Typically,
however, the Agency requires lenders to provide documentation showing borrower eligibility
when seeking purchase. In contrast, under the STAR loan program, the Agency did not
implement any control either at loan inception or after a loan default to determine whether
lenders were adequately documenting whether STAR loan recipients were adversely affected by
the September 11th attacks or their aftermath. The Agency now acknowledges that “more
rigorous controls over the purchase review process can be put in place prior to approving
purchases of STAR loans to confirm eligibility” and recently issued a notice implementing this
requirement.

         With regard to extending our audit work, the objective of our audit was to determine,
based on established law, if STAR loan recipients were appropriately qualified and if SBA
established and implemented proper administrative procedures to verify STAR loan recipient
eligibility. Our objective was not to determine how the enabling law was established.
Accordingly, the OIG does not believe it was necessary to interview all individuals involved in
creating and implementing the STAR loan program to accomplish our objective.
.




                                               19

                                                                                      Appendix A


                   Statistical Sampling Results and Projection Information

         From the population universe of 7,058 disbursed STAR loans, we randomly selected a
statistical sample of 59 to compute our estimate of population values. In statistical sampling, the
estimate of attributes in the population universe has a measurable precision or sampling error.
The precision is a measure of the expected difference between the value found in the sample and
the value of the same characteristics that would have been found if a 100 percent review had
been completed using the same techniques.

        Sampling precision is indicated by ranges, or confidence intervals, that have upper and
lower limits and a certain confidence level. Calculating at a 95 percent confidence level means
the chances are 9.5 out of 10 that, if we reviewed all of the loans in the total population, the
resulting values would be between the lower and upper limits, with the population point
estimates being the most likely amounts.

        We calculated the following population point estimates and the related lower and upper
limits for the selected attributes using the Defense Contract Audit Agency’s ‘E-Z-Quant’
software program at a 95 percent confidence level. Accordingly, 50 of 59 loans or 85 percent
did not contain adequate justifications and/or supporting documentation.

                                          Occurrences    Population
                                                                        Lower       Upper
                  Value                   in Sample of     Point
                                                                        Limit       Limit
                                            59 Loans      Estimate
    Lender file did not contain an
    adequate justification and/or             50            5,981        5,152       6,549
    supporting documentation.
    Justification missing or merely
                                               9            1,076         511        1,905
    a conclusion.
    Justification related to the seller
                                              11            1,315         684        2,180
    rather than applicant borrower.
    Justification contrary to
                                              21            2,511        1,665       3,465
    documentation in file.
    Justification vague and neither
    contrary to nor supported by               9            1,076         511        1,905
    documentation in file.




                                                   1

                                                                                      Appendix B


                                Information on Sampled Loans

                 Gross         SBA                                     Primary      Lender
     Approval                                               Business                          Borrower
#                 Loan       Guaranty    Business Type                  Use of      Justif-
       Date                                                 Location                          Response
                Amount       Amount                                    Proceeds     ication
1     8/2/02    $988,900     $741,675      Restaurant         FL        L, Imp         A         U
2    12/18/02   $520,000     $390,000     Construction        CA        L, Imp,        A         Y
                                                                          WC
3    11/15/02   $622,000     $466,500       Dentist           AZ       L, Imp, R      A          Y
4     7/31/02   $589,500     $442,125     Measuring /         AZ       L, Imp, R      A          Y
                                         Testing Equip.
 5    8/6/02    $866,200     $649,650    Machine Shop         KS          D,E         A          Y
 6   11/27/02   $160,000     $120,000      Day Care           FL        L, Imp        A          Y
 7    9/12/02    $50,000      $25,000       Radiator          AZ          WC          VS         Y
 8    7/31/02    $25,000      $12,500      Electrical         WI          WC          VS         Y
 9   11/27/02   $205,000     $153,750   Moving/Storage        MD       BO, WC         VS         Y
10    6/4/02    $450,000     $337,500     Drycleaner          TX        A, WC         N          U
11    7/2/02    $725,000     $543,750      Restaurant         FL       L, Imp, R      N          N
12    9/9/02     $25,000      $12,500       Dentist           CO          WC          N          U
13   4/26/02    $72,000      $36,000       Electrical         KY          WC          N          Y
14   4/15/02     $25,000      $12,500      Carpenter          CO          WC          N          N
15    1/7/03    $510,800     $383,100       Apparel           OH       BO, WC         N          U
16   11/26/02   $136,000     $102,000    Bar and Grill        OH        L, Imp        N          N
17    8/22/02   $650,000     $487,500    Limo Service         CT        D, WC         N          Y
18    8/23/02   $100,000      $50,000    Oil Company          CT          WC          N          U
19    6/12/02   $640,000     $480,000     Golf Course         TX       L, Imp, E       S         N
20    10/4/02   $541,600     $406,200   Auto Accessories      TX        L, Imp,        S         U
                                                                          WC
21   9/10/02    $860,000     $645,000    Gas station and      TX          L, I        S          U
                                        convenience store
22   12/5/02    $1,079,000   $809,250     Liquor Store        GA       L, Imp, A,     S          N
                                                                           WC
23   6/4/02     $1,000,000   $750,000    Machine Shop         FL        A, WC         S          N
24   3/26/02     $420,000    $315,000     Drycleaner          FL       E, A, WC,      S          N
                                                                            I
25   10/29/02   $200,000     $150,000   Cleaning Supply       NC        A, WC         S          Y
                                          Wholesaler
26    3/7/02    $412,000     $309,000      Restaurant         TX        A, WC         S          U
27   11/15/02   $770,000     $577,500    Gas station and      NJ       L, Imp, A      S          Y
                                           food mart
28   12/6/02    $976,000     $732,000   Gas Station/ Mini     CA       A, L, Imp      S          N
                                             Market
29   12/27/02   $73,000      $54,750        Printing          WI        L, Imp        S          Y
30    5/16/02   $115,000     $97,750      Auto Repair         CA           D          C          U
31    10/9/02   $825,000     $618,750      Dr. Office         NC        L, Imp,       C          U


                                                1

                                                                                           Appendix B


                  Gross        SBA                                          Primary      Lender
     Approval                                                   Business                           Borrower
#                 Loan       Guaranty       Business Type                    Use of      Justif-
       Date                                                     Location                           Response
                 Amount      Amount                                         Proceeds     ication
                                                                               WC
32   12/5/02    $770,000     $577,500         Restaurant          NJ         L, Imp        C          N
33   9/12/02    $175,000     $131,250        Beauty Salon         TX       LHI, D, FF,     C          N
                                                                               WC
34   8/8/02     $459,000     $344,250      Electronics Store      CA         L, Imp        C          N
35   6/5/02     $877,500     $658,125     Home Heath Care         OH         L, Imp        C          N
36   4/26/02    $371,500     $278,625         Appraiser           OR         L, Imp        C          N
37   3/14/02    $168,000     $126,000     Convenience Store       LA         D, WC         C          U
38   12/5/02    $290,000     $217,500        Chiropractor         TX        D, R, WC       C          U
39   1/9/03     $772,700     $579,525         Pharmacy            PA       L, Imp, A,      C          N
                                                                               WC
40   9/27/02    $624,700     $468,525       Furniture Store       FL          C, D         C          N
41   10/4/02    $78,000      $66,300      Janitorial Services     CO         A, WC         C          N
42   4/12/02    $160,000     $120,000     Chemical Product        MN         E, LHI,       C          Y
                                             Wholesaler                        WC
43   9/19/02     $55,500      $47,175      Communications         TX           I,D         C          Y
                                          Equip. Wholesaler
44   4/26/02    $1,395,000    $922,932      Medical Clinic        TX       L, Imp, R       C          N
45   1/9/03     $1,957,500    $999,988        Dr. Office          WA        L, Imp         C          N
46   8/29/02     $212,400     $106,200         Apparel            CO          R/E          C          Y
47   9/23/02    $1,600,000   $1,000,000    Computer Repair        IL           A           C          N
48   1/18/02      $62,370      $53,014       Orthodontist         WI        E, LHI         C          N
49   7/10/02     $51,900      $44,115        Chiropractor         TX       WC, E, I        C          N
50   12/3/02     $583,500     $437,625      Tanning Salon         NV        E, Imp,        C          N
                                                                           WC, FF, D
51    1/8/03    $930,000     $697,500          Clothing           CA        L, Imp        VN          Y
                                              Wholesaler
52   2/25/02    $237,000     $177,750         Restaurant          TX        E, LHI,       VN          U
                                                                             WC
53    7/26/02    $147,400    $125,290           Printing          AZ        WC, E, I      VN          N
54    6/18/02    $154,100    $115,575     Painting Contractor     AZ        D, WC         VN          U
55    9/4/02     $25,000      $21,250        Candy Store          IL         WC           VN          N
56   11/12/02    $10,000       $5,000       Machine Shop          WI         WC           VN          U
57   12/27/02   $1,460,000   $897,900      Gas Station and        CA        L, Imp        VN          N
                                          Convenience store
58   11/1/02    $1,100,000   $825,000     Painting Contractor     MN        D, C, E,      VN          U
                                                                             WC
59   8/26/02    $240,000     $180,000        Chiropractor         IA        A, WC         VN          U




                                                   2

                                                                                    Appendix B


                                         Table Legends

Primary Use of Proceeds:

L – Land purchase
Imp – Improvements purchase
WC – Working Capital
R – Renovations
D – Debt Refinance
E – Equipment Purchase
BO – Buyout of partner
A – Acquisition of Business
LHI – Leasehold Improvements
FF – Furniture and Fixtures purchase
C – Construction
R/E – Real Estate Purchase
I – Inventory Purchase

Lender Justification:

A – STAR loan recipient appeared to be appropriately qualified
VS – STAR justification was vague, but was supported by documentation in the lender’s loan
file and borrower statements
N – STAR justification was missing or merely stated a conclusion with no support
S – STAR justification was related to the seller rather than the applicant borrower
C – STAR justification was contrary to documentation in the lender’s loan file or borrower
statements
VN – STAR justification was vague and neither contrary to nor supported by documentation in
the lender’s loan file or borrower statements

Borrower Response:

U – Auditor was unable to get in touch with the borrower
Y – Borrower stated they were adversely affected by the terrorist attacks of September 11th
N – Borrower stated they were not adversely affected by the terrorist attacks of September 11th




                                                3

                                                                                      Appendix C


                                   Sample Loan Justifications

        The justifications as presented in the various categories in this appendix are verbatim
from the STAR loan justifications documented in the lenders’ loan files. In categorizing these
justifications, we relied on additional supporting or contradictory information located in the
lenders’ files or that we obtained from statements made by the borrowers we interviewed. We
determined that the recipients of loans in categories A and VS appeared to be qualified to receive
STAR loans based on a review of the lenders’ loan files and discussions with available
borrowers. It is not our position that the recipients of the loans listed in categories N, S, C, and
VN were unqualified for the STAR loan program. We only concluded that eligibility could not
be determined for these recipients due to the lack of adequate STAR justifications and supporting
documentation in the lenders’ loan files or non-specific SBA procedures. Our audit was limited
to reviews of the loan files maintained by the lenders and interviews with the borrowers we were
able to contact.

        We interviewed 34 of the 50 borrowers in categories N, S, C, and VN. Twenty-five
claimed they were not affected by September 11, while the other nine claimed they were
adversely impacted for reasons other than those documented in the lender files (see number 46 as
an example). These nine borrowers may have been considered to be eligible if the lenders had
prepared a more appropriate justification. After repeated attempts, we were unable to reach 16
of the borrowers of loans in categories N, S, C, and VN; therefore, we relied solely on the
justifications and documentation in the lenders’ file in categorizing these loans. We did not
verify the accuracy of the borrowers’ statements.




                                                 1

                                                                                                                                            Appendix C


                                                      Category “A”
                                 STAR Loan Recipient Appeared to be Appropriately Qualified
                                                                                                                          Additional Info obtained from lender
No.                                    Justification Provided by Lender
                                                                                                                              file or borrower statements
      “The SBA loan is being submitted under the STAR Program due to the adverse effects the OC experienced
      directly linked to the events of September 11. The applicants Attorney/CPA (name withheld) was located at
      One World Trade Center Drive, 89th floor. A great deal of the principal’s legal and financial documents
                                                                                                                          Justification supported by documentation in the
 1    were located in the office of (name withheld). All of the documents were destroyed in the tragic events of
                                                                                                                          lender’s loan file.
      September 11, along with the loss of the life of (name withheld). The borrower has spent a great deal of
      time and cost of reconstructing the documents including obtaining copies of his personal tax returns directly
      from the I.R.S. Based on this information, the loan qualifies for the STAR Program.”
      “The results of the 9-11 occurrence resulted in extreme financial hardships which effected our business
      operations. Our existing government contracts were slowed because of governmental priorities. Release of            Support in the lender’s loan file consisted of an
 2    new contracts was also affected. New contracts were no longer awarded on a timely basis, but extended to a          aging schedule of account receivables showing
      period of 60-120 days. This action resulted in employee layoffs, because of the inability to provide                past due accounts from various federal agencies.
      employment to our workers.”
      “The OC was indirectly affected by the far reaching short term and long term economic malaise that was a
      direct results of the events of 9/11. The OC is located in a fly-in destination, Phoenix, a town which relies
      heavily upon tourism and hospitality as a vital part of the economic engine that drives its local economy.
      Hospitality and the construction industry were both greatly impacted after the terrorist attacks, which             Justification supported by documentation in the
 3    resulted in the loss of jobs and/or a reduction of wages, which many times led to the loss of benefits. Local       lender’s loan file. Borrower corroborated the
      residents were therefore not buying goods and services that could be put off. Most dental procedures are            justification.
      considered non-urgent or are cosmetic. Borrower reports that some patients canceled routine cleaning or
      minor cosmetic procedures as a result of loss of benefits or reduced discretionary income. Therefore, the
      OC is eligible for an SBA “STAR” loan.”
      “Borrower’s financial performance as evidenced by the six month interim statement reflects the economic
      impact of the events of 9/11. The borrower provides selection and design of laboratory and in-situ testing
      apparatus and software for a variety of industries including construction related businesses as well as many
      public works and educational entities across the country and around the world.”

      “Much of the testing equipment is used on soils, rocks, pavement and construction materials. As the
      construction industry was impacted throughout the country indirectly as a result of 9/11, the need for testing
                                                                                                                          Justification supported by documentation in the
 4    of this type for new projects was reduced.”
                                                                                                                          lender’s loan file.
      “The construction industry suffered directly and indirectly as a result in the downturn of in the economy.
      Layoffs in the construction, tourist, and airline industries (to name a few) and major educational facilities all
      felt the impact of the increased demand on public monies as a result of the 9/11 attacks.”

      “Additionally, the company exports many of its services and products internationally. Interruption of major
      transportation channels after 9/11 further impacted the business operations of the company.”
      “After several years of economic expansion, the major economies of the United States and Europe began to
      slow in 2001. The industry downturn in the wake of the terrorist attacks on September 11, 2001, was
      immediate, serious and widespread. Air travel to, from and within the United States was halted for a period
      of days. Airlines cutback their routes, and frequencies, to deal with the fall off in traffic. The major U.S.
      airlines reported significant financial losses in the fourth quarter and profits for European and Asian airlines
      declined. Recent trends indicate that, absent an event similar to that occurring on September 11, 2001, air
      travel growth and airline revenue will gradually return to pre-September 11 levels. As this happens, airlines       Justification supported by documentation in the
 5
      are expected to slowly expand their routes and frequencies and return to profitability.”                            lender’s loan file.

      “[Borrower]’s weak operating performance in 2001 and 2002 is a direct result of 9/11 that resulted in a sharp
      decline in commercial airline traffic and cancellation of new aircraft orders from the major airlines. This
      obviously has a trickle-down affect on all subcontractors that support the commercial aircraft manufactures.
      The company is starting to see an increase in tooling volume that generally proceed an increase in parts
      volume.”
                                                                                                                          The annualized 2001 financial statement (FS)
                                                                                                                          shows that revenue decreased 1.24%.and the
      “The applicant’s business has experienced a slight slow down from the affects of September 11. With the
                                                                                                                          annualized interim 2002 FS shows that revenue
      economic slow down following September 11, many people were laid off and subsequently did not need
 6                                                                                                                        increased by 21%. The borrower stated that the
      daycare. As the economy has begun to return to normal level, daycare services have begun to return to a
                                                                                                                          day care industry was probably hurt somewhat
      normal level.”
                                                                                                                          and she did see a decline in her business that she
                                                                                                                          had just acquired in March 2001.




                                                                                     2

                                                                                                                        Appendix C


                                           Category “VS” 

                   STAR Justification was Vague, but Supported by Documentation 

                          in the Lender’s File and Borrower Statements. 


                                                                                                                Additional Info obtained
No.                                    Justification Provided by Lender                                           from lender file or
                                                                                                                 borrower statements
                                                                                                                While the justification is vague,
      “The OC was adversely affected by the events of 9/11/01 as shown by the slight sales dip in 2001.         financial statements show a
 7    However, management is confident that the subject transaction is prudent and is a good time to expand     slight dip in 2001 and the
      and acquire this business/customer.”                                                                      borrower corroborated the
                                                                                                                statement.
                                                                                                                While the justification was
                                                                                                                vague, the lender’s credit
      “The applicant is requesting assistance through SBA’s STAR (Supplemental Terrorist Activity Relief)       memorandum supported that the
      program as a result of the economic downturn following the terrorist attacks on September 11, 2001. The   business experienced a decrease
 8    business has experienced some difficulty in one or more of the following areas: making loan payments of   in revenue for FY ending
      existing debt; paying employees or vendors; purchasing materials, supplies or inventory; paying rents,    6/30/2002 as a result of 9/11.
      mortgages or other operating expenses; or securing financing.”                                            The borrower stated that he was
                                                                                                                affected by the overall slow
                                                                                                                down in the economy.
                                                                                                                While the justification is vague,
                                                                                                                financial information in the
      “The subject performs moving and storage for military personnel and was adversely affected by the
                                                                                                                lender’s file showed that sales
 9    September 11th tragedies. Prior to 2001, revenue and cash flow were trending higher and this trend has
                                                                                                                dipped in 2001. The borrower
      continued after 2001.”
                                                                                                                stated his business experienced a
                                                                                                                downturn after 9/11




                                      Category “N” 

      STAR Justification was Missing or Merely Stated a Conclusion with No Support


                                                                                                                Additional Info obtained
No.                                    Justification Provided by Lender                                           from lender file or
                                                                                                                 borrower statements
10    No justification in loan file
11    No Justification in loan file.

12    “STAR: How was your business impacted by 9/11? Slowed down”
      “This customer has been adversely affected by the terrorist attacks of September 11, 2001 in the          Merely a conclusion with no
13
      following manner: Borrower has experienced a business disruption.”                                        support.
      “This customer has been adversely affected by the terrorist attacks of September 11, 2001 in the          Merely a conclusion with no
14
      following manner: Borrower has experienced a business disruption.”                                        support.
      “This customer has been adversely affected by the terrorist attacks of September 11, 2001 in the          Merely a conclusion with no
15
      following manner: Borrower has experienced a business disruption.”                                        support

16    No justification in loan file.

17    No justification in loan file.
                                                                                                                Statement by lender in credit
                                                                                                                analysis alluding to warm
18    No justification in loan file.
                                                                                                                weather as cause for business
                                                                                                                downturn.




                                                                     3

                                                                                                                              Appendix C


                                       Category “S”
      STAR Justification was Related to the Seller Rather than the Applicant Borrower

                                                                                        Additional Info obtained from lender file or
No.                    Justification Provided by Lender
                                                                                                    borrower statement
      “From 1999 to 2000 revenues reflected a 24% increase to $494,644.
      Revenues reflected a 7% decline to $460,283 in fiscal 2001. The seller stated
      the majority of the decline in revenues was realized immediately after the       Impact was under previous ownership and therefore, the
19
      September 11, terrorist attack. He stated that during this period, people were   justification did not apply to the applicant borrower.
      more interested in staying home and watching the coverage of the attack on
      television than playing golf.”
      “This loan was approved and submitted under the “STAR” Program. This             The shut down occurred under the previous ownership and
20    business was actually shut down due to decreases in sales and losses pursuant    therefore, the justification did not apply to the applicant
      to September 11, 2001.”                                                          borrower.
      “The business was negatively impacted by the events of September 11, 2001
                                                                                       Impact was under previous ownership and therefore, the
21    because of the decrease in commercial and tourist travel on U.S. Highway
                                                                                       justification did not apply to the applicant borrower.
      259.”
      “The applicant company was adversely affected as a result of the terrorist
                                                                                       The negative effects on company were under previous
      attacks of September 11, 2001. The effects on the company include: A loss
22                                                                                     ownership and therefore, the justification did not apply to the
      of sales volume; sales dipped about 2% from 2000 to 2001 due to the sluggish
                                                                                       applicant borrower.
      economic environment after 9/11/2001. Holiday sales were down slightly.”
      “The applicant company was adversely affected as a result of the terrorist
                                                                                       Impact was under previous ownership and therefore, the
23    attacks of September 11, 2001. The effects on the company include: closed
                                                                                       justification did not apply to the applicant borrower.
      for the day.”
      “Borrower has advised that subject business had closed down for the day on
                                                                                       Impact was under previous ownership and therefore, the
24    September 11 and September 12, due to the tragic events of 9/11/01. We will
                                                                                       justification did not apply to the applicant borrower.
      therefore designate this as a STAR.”
      “The applicant company was adversely affected as a result of the terrorist
                                                                                       Adverse affects occurred under previous ownership and
      attacks of September 11, 2001. The effects on the company include: delays
25                                                                                     therefore, the justification did not apply to the applicant
      receiving inventory & supplies from various vendors due to the terrorist
                                                                                       borrower.
      attacks.”
      “The applicant company was adversely affected as a result of the terrorist
                                                                                       The effects on the company were under previous ownership
      attacks of September 11, 2001. The effects on the company include, a slight
26                                                                                     and therefore, the justification did not apply to the applicant
      decline was noticed in September, 2001, but recovered to normal levels by
                                                                                       borrower.
      October 2001.”
      “The current seller has suffered economic hardship in his attempts to upgrade
      the facility and install a convenience store. He has invested over $250,000 in
      renovation and legal expenses to renovate and install the food mart. The
      station had been closed for 4 months due to renovations. Subsequent to his
                                                                                       The adverse affects all occurred under previous ownership
      re-opening in late August of 2001 he was dealt another set back due to the
27                                                                                     and therefore, the justification did not apply to the applicant
      terrorist acts of September 11, 2001. The subject property is located
                                                                                       borrower.
      approximately 50 miles from “ground zero” in NY city. Traffic volume
      decreased by as much as 40% in the area affecting the seller’s ability to
      consistently meet his financial obligations. As a result of this impact, the
      borrower is applying under the SBA STAR Program.”
      “The borrower is seeking SBA loan proceeds because he does not have
                                                                                       The first part of the justification applies to the impact on the
      enough available capital injection to pursue conventional financing. The lack
                                                                                       principal’s personal investments, rather than an adverse
      of injection is due to losses sustain in investments which were the result of
                                                                                       affect on a small business as required by SBA procedures.
      the economic downturn that was further exasperated by events of 9/11.”
28                                                                                     Therefore, this justification is not relevant. The second part
                                                                                       of the justification relates to the adverse affect of 9/11 on the
      “The seller’s business suffered from the events of 9/11 as well. Although
                                                                                       previous owner and therefore, did not apply to the applicant
      financials would indicate growth, the seller expected to see higher revenues
                                                                                       borrower.
      during 2001 (the first full year of the subject business’s operations).”
      “The applicant is requesting assistance through SBA’s STAR (Supplemental
                                                                                       The lender’s credit memorandum showed that the adverse
      Terrorist Activity Relief) program as a result of the economic downturn
                                                                                       affect was a loss in sales attributed to the events of 9/11 and
      following the terrorist attacks on September 11, 2001. The business has
                                                                                       the subsequent down turn in the economy. This occurred
29    experienced some difficulty in one or more of the following areas: making
                                                                                       under the previous ownership and therefore, the justification
      loan payments of existing debt; paying employees or vendors; purchasing
                                                                                       did not apply to the applicant. The applicant did not
      materials, supplies or inventory; paying rents, mortgages or other operating
                                                                                       purchase the business until 12/02.
      expenses; or securing financing.”




                                                                     4

                                                                                                                                 Appendix C


                                                 Category “C” 

                              STAR Justification was Contrary to Documentation 

                               in the Lender’s Loan File or Borrower Statements 


                                                                                          Contradictory Information obtained from the
No.                    Justification Provided by Lender
                                                                                               lender file or borrower statement
      “[Borrower] experienced a considerable drop-off in revenue after the
      terrorists attacks in September. It took a significant toll on the cash flow of     The lender’s credit memorandum stated: In 2001,
      the business. With sales down, overhead costs diminished the working                [Principal] took a break from working at the shop and being
      capital of the business. [Principal] did an excellent job utilizing all his         on site at all times. The result was a drop off in quality
30    resources to fulfill all his obligations and pay his suppliers and creditors in a   control and efficiency, ultimately leading to a fall off in sales
      timely manner. With the proposed SBA loan, [Principal] will be able to              from $575,564 in 2000 to $438,880 for the 12-months
      consolidate his entire corporate debt into a low interest note, benefiting cash     ending 12/31/01. This was disappointing to [Principal], who
      flow immediately. Since January, sales are back on track and [Borrower] is          then decided he wanted full ownership back.
      on target to meet all their projections for 2002.”
      “This loan qualifies for financing through the STAR Loan Program.
      Borrower’s negotiations on the real estate were hampered by the events of           In our opinion, the justification is illogical and does not
      9/11. The borrower was trying to purchase the real estate prior to 9/11. The        explain why the seller would be reluctant to sell. It appears
      sellers were hesitant to sell after the instability of the economy brought on by    the sale would have benefited the seller during an unstable
31
      the events of 9/11. The doctor continued to pursue the real estate as it was        economy. In discussions with a lender official, they could
      exactly what she needed for her practice, completely furnished and only 3           not explain the justification and indicated it did not make
      miles away. There were no other properties in the immediate area that met           sense.
      this criteria.”
                                                                                          The lender’s credit memorandum and tax returns showed
      “Revenues for the existing location have risen in each of the years presented,
                                                                                          that sales increased each year from 1999 to 2002. There was
      and are on pace to eclipse the $200M mark for the first time since the
                                                                                          no monthly breakdown of sales to show whether or not sales
      business started. This mark would have been met in 2002, however, the
                                                                                          decreased after 9/11/01. The borrower indicated they were
32    borrowers experienced a drop in sales due to their proximity to New York
                                                                                          slightly affected during the month of the attacks, but that it
      City and the terrorist attacks of 9/11/01. The business is located less than a ½
                                                                                          did not adversely affect the business over the long term. The
      mile from the Hudson River, and is directly across the river from the site
                                                                                          SBA loan was used to purchase a second location for the
      where the World Trace Center once stood.”
                                                                                          business.
                                                                                          In its credit memorandum, the lender compared the
                                                                                          borrower’s gross revenue in 2001 to the previous owner’s
      “The current owner purchased the business in June 2001. Last year end
                                                                                          gross revenue in 2000. There was no analysis linking the
33    financial statement reflected 2% decrease in Gross Revenue due to the slow
                                                                                          2% decline in sales to 9/11. The borrower stated he did not
      trend in economic after the 9/11 event in the forth quarter.”
                                                                                          believe his business suffered economic harm as a result of
                                                                                          9/11.
      “The request is submitted under the Defense Appropriations Act of 1/10/02.          In general, the business was in an upward sales and net
      The subject business has been adversely affected through economic harm or           income trend shown in the three prior years’ financial history
34
      disruption of business by the Sept. 11, 2001 terrorist attacks, and their           and interim period through 5/31/2002. The loan was used to
      aftermath through the following: General slowdown in revenues”                      purchase land and improvements.
                                                                                          The credit memorandum did not include specific information
      “This request is submitted under the Defense Appropriations Act of 1/10/02.
                                                                                          on how 9/11 affected this business. In general, the business
      The subject business has been adversely affected through economic harm or
                                                                                          was in an upward sales and net income trend shown in the
      disruption of business by the 9/11/01 terrorist attacks, and their aftermath.
                                                                                          three prior years’ financial history and interim period
      The client indicated that as a result of the events of 9/11/01, the business has
35                                                                                        through 3/31/2002. The business (including affiliates) had a
      experienced the following:
                                                                                          68% increase in revenue in 2001. There was no evidence
      General slowdown in revenues and/or business activity
                                                                                          that the borrower had difficulty in obtaining financing as a
      Difficulty in purchasing material, supplies, or inventory
                                                                                          result of 9/11. The loan was used to purchase land and
      Difficulty in securing financing”
                                                                                          improvements.
      “The request is submitted under the Defense Appropriations Act of 1/10/02.          The financial reports and loan review showed a growing
      The subject business has been adversely affected through economic harm or           business and an 87% increase in revenues. In addition, there
      disruption of business by September 11, 2001 terrorist attacks, and their           was no indication there had been a decline in the number of
36
      aftermath through the following: Slow down in the economy had a temporary           real estate loans submitted and approved. The borrower
      negative affect on the business as fewer borrower's applied for real estate         stated he was not adversely affected by 9/11. The loan was
      loans and projects were cancelled.”                                                 used to purchase land and improvements.
                                                                                          Financial statements indicate the borrower's sales increased
      “This customer has been adversely affected by the terrorist attacks of              from 2000 to 2001. No evidence in file supported that the
      September 11, 2001 in the following manner: Borrower has suffered loss in           borrower suffered loss in volume, had difficulty purchasing
37    annual business volume. Borrower has experienced unusual increase in cost           inventory or experienced an increase in cost of goods sold.
      of goods sold/services/operational expenses. Borrower has experienced               In fact, the financials showed that cost of goods sold was
      difficulty purchasing raw materials, supplies or inventory.”                        65% of sales for the year 2001 but only 64% of sales for the
                                                                                          month of December 2001.




                                                                        5

                                                                                                                             Appendix C

                                                                                        Contradictory Information obtained from the
No.                    Justification Provided by Lender
                                                                                             lender file or borrower statement
                                                                                        A review of the tax returns and financial statements for the 4
                                                                                        year period 1999 - 2002 reveal that the business was
                                                                                        experiencing growth in revenue over this time frame. From
                                                                                        1999 - 2000, the business had a 13% growth in gross
                                                                                        revenue. From 2000 to 2001, the business experienced a
                                                                                        growth in gross revenue of 24% and when annualized, the
                                                                                        growth from 2001 to 2002 was a 23% increase. There was
      “This customer has been adversely affected by the terrorist attacks of
                                                                                        no evidence that the borrower had difficulty maintaining
38    September 11, 2001 in the following manner: Borrower requires economic
                                                                                        current status on fixed debt obligations as a result of 9/11.
      relief in maintaining current status on fixed debt obligations.”
                                                                                        Furthermore, interim 2002 financial statements showed an
                                                                                        adequate debt service coverage and lender’s credit
                                                                                        memorandum stated the borrower requested the loan to
                                                                                        refinance his debt because he wanted a higher reduction of
                                                                                        principal and a lower interest rate. He did not, however,
                                                                                        request to have his payments reduced and loan term
                                                                                        extended.
                                                                                        There was no evidence the purchase was in process prior to
      “This loan is eligible for the STAR program. The borrower was in the
                                                                                        September 11. The Board of Directors did not approve the
39    process of purchasing this business when everything was delayed due to the
                                                                                        purchase until April of 2002 and the borrower stated he did
      events of September 11, 2001.”
                                                                                        not delay the purchase as a result of 9/11.
                                                                                        There was no evidence in the lender’s file to support the
      “The applicants indicated that they postponed their decision to move forward      justification. The borrower stated that his business actually
40    with this expansion until they could better gauge the impact on the Economy       increased during the fourth quarter of 2001 and first quarter
      from the terrorist attacks of 9/11/01.”                                           of 2002. He did not indicate that he postponed his expansion
                                                                                        as a result of 9/11.
      “The loan is eligible for the STAR LOAN program because the seller was
                                                                                        There was no evidence in the lender’s file that the borrower
      waiting to sell and the buyer was unsure about purchasing a cleaning business
                                                                                        postponed the purchase as a result of 9/11. The borrower did
41    until they could wait a full year to see how the events of 9/11/01 had affected
                                                                                        not believe the business was adversely by 9/11 and stated the
      the business. They postponed the purchase until they were certain the
                                                                                        business was purchased more than a year after 9/11.
      business was stable.”
                                                                                        There was no evidence in the lender’s file that the borrower
                                                                                        postponed the purchase of the additional equipment as a
                                                                                        result of 9/11. The lender’s credit memorandum showed the
                                                                                        loan was originally approved as a regular 7(a) loan and was
                                                                                        converted to a STAR loan. The loan was an extension of a
                                                                                        previous equipment loan and was needed because the
                                                                                        borrower’s original bid was low and they needed additional
      “This is classified as a STAR loan because the borrower wanted to purchase        loan funds to fund the purchase. The credit memorandum
      additional equipment, but due to the events of 9/11, was were (sic) unsure of     indicated that the past 4 or 5 months were difficult for the
42
      the general economic environment. This affected liquidity and potentially the     borrower due to their move to a new location, moving
      ability to cash flow additional debt service.”                                    production on-site, sales staff turn over and new product
                                                                                        concentration. The borrower stated that she believes her
                                                                                        business was greatly impacted by 9/11 because business
                                                                                        dropped off significantly as customers would not order any
                                                                                        inventory. She stated she had a hard time staying in
                                                                                        business. She stated that none of this was discussed with the
                                                                                        lender. The borrower did not indicate that she delayed the
                                                                                        purchase of this equipment as a result of 9/11.
                                                                                        There was no evidence in the lender’s loan file that the
                                                                                        borrower delayed its business expansion as a result of 9/11.
                                                                                        The loan was not used for the expansion. It was used to
      “Due to 9/11 and the downturn in the economy which reduced consumer
                                                                                        purchase inventory and refinance debt. The borrower stated
      spending and created uncertainty in the economy, the business expansion for
                                                                                        that she was affected by 9/11 because she sold equipment
43    [Borrower] was delayed and was adversely impacted by that event. The loan
                                                                                        used for broadcasting and the industry slowed down after
      is thus eligible for the STAR program.”
                                                                                        9/11. She stated that broadcasters focused more on what was
                                                                                        happening with 9/11 and not on purchasing equipment. She
                                                                                        did not indicate that she postponed her business expansion as
                                                                                        a result of 9/11.
                                                                                        There was no evidence in the lender’s file that the borrower
      “An economic impact after 9/11 tragedy on the borrower is that they are in
                                                                                        had difficulty securing financing as a result of 9/11. The
      difficulty in securing financing from other financial institutions. The
44                                                                                      borrower stated he was not affected by 9/11 and that his
      borrower planned to begin financing process earlier, but its ability to do so
                                                                                        ability to begin the financing process was not hampered by
      was hampered by the terrorist actions and their aftermath.”
                                                                                        9/11.




                                                                       6

                                                                                                                               Appendix C

                                                                                         Contradictory Information obtained from the
No.                    Justification Provided by Lender
                                                                                              lender file or borrower statement
      “The request is submitted under the Defense Appropriations Act of 1/10/02.         There was no documentation of previous efforts or decisions
      The subject business has been adversely affected though economic harm or           to secure financing or of a decrease in financial position in
      disruption of business by Sept. 11, 2001 terrorist attacks, and their aftermath    the lender’s file. The credit memorandum shows an
45    through the following: Difficult in securing financing. The borrower               increasing trend in revenues. The credit memorandum stated
      indicated that they were planning to buy the property earlier this year, but due   that the borrower indicated the practice is not sensitive to the
      to the terrorist attack, they had to wait and see how the business was             economy. Furthermore, the borrower told the auditors that
      affected.”                                                                         his business decisions were not affected by 9/11.
                                                                                         There was no evidence in the lender file to support that the
                                                                                         borrower had to defer its fixed asset purchase and/or
                                                                                         scheduled maintenance. The borrower stated that her
                                                                                         business was absolutely affected by 9/11. She said that
                                                                                         business had begun declining prior to 9/11 (around June
      “This customer has been adversely affected by the terrorist attacks of             2001) but got even worse after 9/11. She said that she had
46    September 11, 2001 in the following manner: Borrower has had to defer              talked in detail with the lender regarding how 9/11 affected
      fixed asset purchases/replacement and/or scheduled maintenance.”                   her business. Her business sells sweaters in a resort area and
                                                                                         resorts were heavily affected by 9/11 as travel declined. She
                                                                                         stated that the loan she received was to purchase real estate
                                                                                         to relocate the business, however, her decision to purchase
                                                                                         the real estate was not delayed by 9/11 as the underwriter
                                                                                         indicated in his justification.
                                                                                         There was no evidence in the lender’s file that the business
                                                                                         acquisition was delayed as a result of 9/11. The credit
      “The acquisition of this business was delayed due to the generally ailing 4th
                                                                                         memorandum indicated that the change of ownership was
      quarter economic conditions. The Buyer did not buy out the company until
                                                                                         necessary because the seller violated loan covenants by
47    1st quarter 2002 until the year-end fiscal data was available to better assess
                                                                                         converting company funds to personal uses. Furthermore,
      risk levels. The company was in a considerable growth mode in 2000 and
                                                                                         the credit memorandum showed that the decline in sales
      then showed declining sales of 23% in 2001.”
                                                                                         resulted from the loss of 2 partial contracts during FY 01.
                                                                                         The borrower stated they were not affected by 9/11.
                                                                                         There was no evidence in the lender’s file that the business’
                                                                                         2nd location was unable to open in the 4th quarter of 2001 due
      “This business was adversely affected by the events of 9-11-01. They were
                                                                                         to 9/11. The credit memorandum stated that the borrower
      unable to open in the fourth quarter of 2001 due to the tragedy and the
48                                                                                       wished to establish a new practice in the same area he was
      public’s unwillingness to accept new business at that time. This resulted in
                                                                                         practicing and would work out of both offices. Accordingly,
      lost revenue and lost profits to the business owners.”
                                                                                         this was not a new business. The borrower stated he was not
                                                                                         affected by 9/11.
                                                                                         There was no evidence in the lender’s loan file to support or
      “Due to 9/11 and the downturn in the economy which reduced consumer
                                                                                         contradict that the borrower delayed its start-up. The
49    spending, this business start-up was delayed and was adversely impacted by
                                                                                         borrower stated that the start-up of her business was not
      that event. The loan is thus eligible for the STAR program.”
                                                                                         delayed due to the events of 9/11.
      “Based on conversation with the borrower, the Borrower had trouble securing
                                                                                         While the justification appeared to be adequate, it was
      financing for this project due to the economic conditions and uncertainty as a
                                                                                         contrary to documentation in the lender’s loan file and the
      result of the terrorist attacks of 9/11/01. While growth for the company was
                                                                                         borrower’s statements. There was no evidence in the
      positive in 2001, it was below projections due to the slow-down in late 2001.
                                                                                         lender’s loan file that the borrower could not obtain
      The company has had trouble securing financing for this venture due to the
                                                                                         financing as a result of 9/11. The lender’s credit
      effects of 9/11 on the local economy. Many of the customers who use
                                                                                         memorandum showed the borrower experienced a 51.6%
50    tanning salons are performers in casinos and work in various capacities in the
                                                                                         sales growth for 2001 and an annualized 2002 sales growth
      casino industry. Las Vegas tourism was hit hard by 9/11 and many casino
                                                                                         of 31.6%. The borrower stated that 9/11 did not affect his
      workers lost their jobs or had their hours scaled back…this is a large part of
                                                                                         ability to secure financing. He further stated that his
      [Borrower’s] customer base. The company believes that the long term
                                                                                         business was not affected by 9/11. He stated that although
      prospect of Las Vegas are strong and that now is an opportune time to expand
                                                                                         there was a slight down turn in the month following 9/11,
      its presence in the Valley (rental rates are lower and incentives are being
                                                                                         subsequent months were not affected.
      offered by shopping center owners due to a slow down from 9/11).”




                                                                       7

                                                                                                                              Appendix C


                                       Category “VN” 

             STAR Justification was Vague and Neither Contrary to Nor Supported 

              by Documentation in the Lender’s Loan File or Borrower Statements


                                                                                        Additional Info obtained from lender loan file
No.                    Justification Provided by Lender
                                                                                                   or borrower statements
      “Due to the result of the terrorist attacks perpetuated against the U.S. on
      September 11th, 2001 the applicant’s ability to purchase a commercial             There was no evidence in the lender’s loan file to support or
51    property was hampered by the terrorist actions and their aftermath. As a          contradict that the applicant was unable to secure financing
      result, the applicant was not able to secure a financing of conventional loan;    for the purchase of commercial property.
      therefore, the applicant is requesting an SBA loan under the STAR program.”
                                                                                        There was no evidence in the lender’s loan file to support or
      “The applicants stated they planned to open the new business for some time,
                                                                                        contradict that the applicant planned to open the new
      but the events of 9-11 delayed their decision in doing so. Therefore, the
52                                                                                      business for some time and the events of 9/11 delayed their
      applicant is eligible for the STAR program. [Lender] requests that this loan
                                                                                        decision in doing so. We could not obtain current contact
      be reclassified as a STAR loan.”
                                                                                        information for the borrower.
                                                                                        There was no evidence in the lender’s loan file to support or
                                                                                        contradict that the borrower delayed his start-up. The
      “Borrower was uncertain about proceeding the project and initiating the           borrower stated that he believes he was laid off from his
53    application until there were clear signs confidence was restored the nation and   previous employer in 2/02 as a result of 9/11 and signed on
      the economy would resume moving forward.”                                         with a franchise to start his own business is 5/02. The loan
                                                                                        was approved on 7/26/02 and was used to purchase
                                                                                        equipment and inventory and for working capital.
                                                                                        The borrower's tax returns did indicate a down turn in gross
                                                                                        receipts from FY 2000 to FY 2001, however, an analysis or
      “This customer has been adversely affected by the terrorist attacks of
                                                                                        monthly breakdown of gross receipts was not found in the
54    September 11, 2001 in the following manner: Borrower has suffered loss in
                                                                                        loan file. Therefore, it is impossible to determine if the loss
      annual business volume.”
                                                                                        in annual business volume was a result of 9/11. We could
                                                                                        not obtain current contact information for the borrower.
      “This loan qualifies under the STAR Loan program, as our borrower would
      have gone into business sooner had it not been for September 11, 2001 and         There was no evidence in the lender’s loan file to support or
55
      the impact on the economy. Borrower had to delay the opening of the               contradict that the borrower delayed its start-up due to 9/11.
      business.”
      “This business was adversely affected by the events of 9-11-01. They were
      unable to open in the fourth quarter of 2001 due to the tragedy and the           There was no evidence in the lender’s loan file to support or
56
      public's unwillingness to accept new businesses at that time. This resulted in    contradict that the borrower delayed its start-up due to 9/11.
      lost revenue and lost profits to the business owners.”
      “The applicant has been adversely affected by the events of 9-11. The events
      of 9-11 has caused down turn in overall economy which in turn has limited         There was no evidence in the lender’s loan file to support or
57    the applicant’s ability to secure a conventional financing for the proposed       contradict that the borrower could not obtain financing as a
      purchase. Based on its difficulty in obtaining financing due to the events of     result of 9/11.
      9-11, the applicant is determined to be eligible for STAR program.”
                                                                                        There was no evidence in the lender’s loan file to support or
      “[Borrower] has been planning to expand their business by adding on to their      contradict that the borrower was reluctant to expand his
      existing facility and upgrading their equipment. Because this business is         business. The borrower's financial statements indicated a
58
      closely tied to the new construction industry the borrower has been reluctant     strong growth in income from 1999 through 2003 with no
      to expand his business due to the impact 9/11 had on the economy.”                significant increase in costs. The borrower did not respond
                                                                                        to our inquiries.
      “Transaction qualifies for the STAR program. The customer had originally
      intended to purchase this business in late 2001. However, due to the events
                                                                                        There was no evidence in the lender’s loan file to support or
      occurring on 9/11/01, the project was postponed until now. The customer
59                                                                                      contradict that the borrower postponed the purchase of the
      was unsure of the event’s impact on personal investments which represented
                                                                                        business. The borrower did not respond to our inquiries.
      sources of liquidity. In addition, borrower was unsure of the economy in
      general and how this would impact the business being purchased.”




                                                                       8

                                                                                      Appendix D
                            U.S. SMALL BUSINESS ADMINISTRATION
                                     WASHINGTON, D.C. 20416




DATE:          December 19, 2005

TO:            Robert G. Seabrooks
               Assistant Inspector General for Auditing
               /S/ original signed
FROM:          Michael W. Hager
               Associate Deputy Administrator for Capital Access

SUBJECT:       Draft IG Audit of SBA’s Administration of the Supplemental Terrorist
               Activity Relief (STAR) Loan Program


Thank you for the opportunity to review the draft audit report on SBA’s Administration of the
Supplemental Terrorist Activity Relief (STAR) Loan Program. We appreciate the work that
went into the audit and are providing the Office of Inspector General (OIG) with the following
comments.

First, we want to reiterate that every eligible business, directly or indirectly impacted by the
September 11th terrorist attacks, was able to receive a STAR loan. As your report notes, the
STAR loan program expired with over one third of the budgetary authority established for the
program unused and “qualified borrowers were not precluded from receiving STAR loans due to
a lack of funds.” In fact, Congress subsequently authorized SBA to use the excess budgetary
authority more broadly – for loan guarantees for small businesses generally, including those not
adversely affected by the terrorist attacks.

Second, OIG’s audit report appears to misunderstand the purpose of the STAR loan program,
which is different from SBA’s disaster loan program. SBA’s disaster loan program was
available to those businesses directly impacted by the September 11th terrorist attacks. The
disaster loan program has significantly more favorable terms and rates. In fact, we believe that
those borrowers in the STAR loan program that OIG has concluded were clearly eligible for a
STAR loan could have received the more favorable terms available through the disaster loan
program.

SBA believes that most, if not all, STAR loan program borrowers were eligible for the STAR
loan program. At the same time, SBA acknowledges that more rigorous controls over the
purchase review process can be put in place prior to approving purchases of STAR loans to
confirm eligibility. However, it is important to remember that (1) there were more than sufficient
funds available for all borrowers; (2) SBA did provide clear guidance as to the breadth and depth
of situations eligible for the STAR loan program and clearly established standards for the
analysis and documentation required to support a STAR loan; and (3) the direction provided to
lenders either orally or through Agency directives was consistent with that guidance. All of
these points are made either directly or indirectly in the draft audit report. We also wish to note


                                                 1

                                                                                       Appendix D

that OIG reviewed and approved the Procedural Notices for the STAR loan program before they
were issued. Presumably, OIG reviewed the notices for the adequacy of guidance, criteria and
internal controls before providing its concurrence.

As OIG states in the draft report, “it is not [the OIG’s] position that the recipients . . . were
unqualified for the STAR loan program.” Rather, OIG “conclude[d] that eligibility could not be
determined for these recipients due to the lack of adequate STAR justifications and supporting
documentation in the lenders’ loan files.” Lenders were provided clear direction both orally and
in writing by SBA on the requirement to document their files. SBA will improve its internal
controls governing the guaranty purchase review process to ensure that these justifications are
provided prior to purchase but a requirement for lenders was clearly established and
communicated.

Further, lenders are aware that loans are reviewed for requirements at purchase and would have
no basis for believing a purchase request would not be evaluated for STAR loan program
eligibility. SBA did not waive any requirements to document the analysis in the file supporting a
borrower’s eligibility for the STAR loan program. In fact, our guidance repeatedly discussed
documentation requirements.

The statute established eligibility for the STAR loan program as a “small business adversely
affected by the September 11, 2001 terrorist attacks and their aftermath.” Given the broad
statutory mandate and the general concern at the time that the September 11th terrorist attacks
would have a significant negative impact on the national economy, SBA interpreted its statutory
mandate most broadly, and SBA’s interpretation in this regard must be accorded due deference.
Guidance issued by SBA in procedural notices and public statements supported that
determination and was consistent throughout the program. As the draft report states, SBA
Procedural Notice 5000-779 established a requirement that the lender prepare and maintain in its
loan file a statement summarizing its analysis and its conclusion that the loan was eligible for the
STAR loan program; a statement merely concluding that a borrower was eligible without the
analysis was insufficient. The statements made by the AA/FA quoted in the draft report, such as
that SBA would “be looking for a document that [a lender had] put in the file where [the lender]
discuss[ed] how the business was adversely affected,” were consistent with these requirements.
While the AA/FA’s statement may not have repeated the procedural notice word for word, the
intent was the same – simply providing a concluding statement was insufficient without the
accompanying analysis, i.e., a document discussing how the business was adversely affected was
required.

With regard to OIG’s recommendations 1-3, SBA agrees that if another nation-wide disaster
relief program is established within the 7(a) program that the factors identified by OIG should be
incorporated going forward, as appropriate to the specific situation. With regard to the
recommendations provided relative to the STAR loan program, SBA agrees that lenders should
submit STAR loan justifications when seeking SBA’s purchase of a STAR loan guaranty and has
already implemented this recommendation. With regard to recommendation number five, while
we believe that SBA has established standards as to what constitutes an eligible loan that should
guide purchase reviewers, SBA will review its existing guidance and determine if additional
guidance is necessary. With regard to the last two recommendations related to treatment of



                                                 2

                                                                                       Appendix D

STAR loans either already purchased or future purchase requests without adequate justification
of eligibility, we do not object to the intent of the recommendation but will need to ascertain the
availability of appropriated funds from the relevant year as well as assess any legal implications
of the recommendation.

We are available to discuss any questions you may have with our comments.




                                                 3

                                                                                        Appendix E



              Comments on the Draft OIG Report on the STAR Loan Program
 From the Former Associate Deputy Administrator for Capital Access and the Former Associate 

                           Administrator for Financial Assistance

                                   December 20, 2005


Thank you for providing this opportunity for us to offer comments on the draft OIG audit report
on the STAR loan program. In general, we agree with the official Agency comments.
Particularly, with regard to the implication in the OIG report that we (Bew and Butler) exceeded
the intent of the STAR loan program, we would reiterate the Agency position that our words --
written and oral -- fully reflected the policy of the Agency. And we would note that they also
reflected the policy that was discussed and concurred with, at the highest levels within the
Agency; and, as we believe, also concurred with by the congressional staff most closely involved
with the creation and implementation of the STAR program. What we did during those dark
days after September 11, 2001 was play very small roles in getting assistance to America's small
businesses in an effort to try to keep our economy from faltering. At the time, and still today, we
believe that what we did was fully in keeping with the intent of Congress and the desires of the
Administration.

With regard to the specific Agency comments on the report, we share the concern expressed by
the Agency that the OIG report fails to reflect a full understanding of the purpose of the program.
And, we would add our opinion that the report is deficient in that it does not provide any
historical context for the authorization and implementation of the STAR program.

On September 11, 2001, when the terrorists attacked U.S. citizens on U.S. soil, they destroyed
far more than planes and buildings, and they took a toll far greater than the lives that were so
tragically lost. By their actions on that day, the terrorists forever took away Americans' sense of
security and our feeling that we were somehow insulated from the terrorist activities that
frequently take place in other countries. In the aftermath of 9/11, vast numbers of Americans
actually experienced the various stages of grief -- eschewing restaurant meals, movie dates, and
shopping expeditions for quiet times in their homes with their families. In addition, immediately
after 9/11, many Americans could not travel, and later, many chose not to travel. As a result of
this so-called "cocooning" effect, there was a very real concern that the stability of the American
economy was at risk -- and, a very real bi-partisan and virtually universal desire to make sure
that we did not allow the terrorists' actions to cause the American economy to falter. That
concern was so great that America's leaders actually called on Americans to defeat the intent of
the terrorists by getting back to their day-to-day activities as quickly as possible. It was in this
environment that the STAR loan program was conceived and implemented. What is missing
from the OIG analysis is any acknowledgment of that environment.

In the days and weeks that followed 9/11, SBA staff met frequently with small business
committee staff in both the Senate and the House to discuss ways to help assist small businesses
that, although not eligible for SBA disaster assistance, had none-the-less been directly or
indirectly affected by the terrorist activities of 9/11 and their aftermath. And, although the report
does not reflect it, many of us involved in those discussions recall strong bi-partisan agreement
that SBA should do as much as it could as quickly as it could to help bolster the economy. Even



                                                  1

                                                                                       Appendix E

the name "STAR," coined by SBA staff in the Office of Financial Assistance is an indicator of
the context in which the program was developed -- a very real patriotic intent to do all we could
to help America thrive after so unimaginable an event.

The OIG report criticizes SBA for not providing detailed guidance as to what constituted
"adverse impact." What it fails to acknowledge is the fact that because the attacks were so
unprecedented, there was no way for us to imagine or gauge what short- and long-term affects
the attacks would have on the American economy, particularly on its small business segment.
This is important because it created a situation that demanded a creative approach to assure the
best possible structuring of the program to address multiple unknowns. What is also missing in
the OIG report is any acknowledgment that all parties involved in the implementation of the
STAR program were, at that time, in agreement with the proposed inclusive and far-reaching
approach. Unfortunately, to the best of our knowledge, many of those individuals, particularly
those outside SBA, were not asked to provide their recollections or insight about the program's
origins and intent for inclusion in the OIG report.

Obviously we agree with the Agency's contention that SBA provided clear guidance and that
additional "guidance provided to lenders either orally or through Agency directives was
consistent with that guidance." Nothing quoted in the OIG report can be construed as giving
lenders carte blanche to find all loans eligible for STAR. Rather, SBA staff guidance, both in
writing and orally, was consistent in that lenders were made fully aware of their responsibility to
document in their files the bases for their determinations of STAR program eligibility. At that
time, the desire of the Agency and the Congress was that the STAR program be used to the
maximum extent appropriate to assure that the economy remained strong.

As to the issue of what can be imputed from the clearances of the STAR notices by OIG and
others, it must be noted that, when the notices were being cleared, those clearing them apparently
believed that the requirements specified for lenders were adequate. Second-guessing today
whether it may have been more appropriate to have SBA review lenders' eligibility assessments
prior to loan approval is therefore not appropriate. However, it may be appropriate to consider
such process for similar loan programs that may be enacted in the future.

As to the issue of what lenders should expect regarding post-approval examinations by SBA, we
note that in the cited speech made by the former AA/FA in May, 2002, she specifically stated
that, for PLP and post-purchase reviews, SBA would be looking for documents in the lenders'
files that discussed how the businesses were adversely affected. In order to encourage lenders to
make STAR loans, we needed to give them some level of comfort that we would not later "play
gotcha" to deny guaranty liability or otherwise penalize lenders. We believed then, and continue
to believe, that given the circumstances at the time, the guidance that we provided was
appropriate. Now, however, the SBA OIG is engaging in the very conduct that we thought our
guidance would preclude -- second- guessing even those justifications that appear to meet the
broad program eligibility guidelines. Here, we should note, however, that we certainly agree that
those loan folders that contain no justification, or provide just boiler plate "the loan is eligible"
language, cannot be construed to be eligible for the program.




                                                 2

                                                                                 Appendix E

In summary, in addition to the specific language changes and additions that we are
recommending, we would also recommend that consideration be given to extending the work
under this audit to enable OIG to interview other individuals involved in creating and
implementing what became known as the STAR program. In this regard, we particularly
recommend that staff on the congressional committees at the time the program was created be
interviewed. We also recommend that interviews be conducted with SBA's former Chief of
Staff, the former ADA for Management and Administration, the former Counselor to the
Administrator, the former ADA for Capital Access, the former Acting ADA/CA and other
current and former SBA employees directly and indirectly related to the implementation of this
program. The information gained by conducting such interviews will allow a more complete and
comprehensive OIG audit report.




                                              3

